NO. 20-820
IN THE
SUPREME COURT OF THE UNITED STATES

DENISE JACKSON,
PETITIONER, PRO SE
V.
WELLS FARGO HOME MORTGAGE,
RESPONDENT.

ON THE MATTER OF PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS OF THE SECOND CIRCUIT
PETITION FOR REHEARING
CORRECTION FOR CERTIFICATION

DENISE JACKSON
PETITIONER, PRO SE
215 MAPLE STREET
BROOKLYN, NY 11225
718-282-8090
GODSPROPERTY215@GMAIL.COM

I

PARTIES TO THE PROCEEDINGS
1 UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF NEW YORK
HONORABLE JUDGE: PAMELA CHEN
HONORABLE MAGISTRATE JUDGE: STEVEN TISCIONE
2 UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
HONORABLE JUDGE: DENNY CHIN
HONORABLE JUDGE: RICHARD J. SULLIVAN
HONORABLE JUDGE: WILLIAM J. NARDINI
3 WELLS FARGO HOME MORTGAGE:
ATTORNEY: C. NEIL GARY, PARTNER: % REED SMITH
4 HOGAN LOVELLS US LLP:
ATTORNEY: ROBIN L. MUIR, ASSOCIATE
ATTORNEY: LISA FRIED

i

INTRODUCTION FOR MERITS
HONORABLE CHIEF JUSTICE, JOHN ROBERTS, HONORABLE JUSTICES, OF THE UNITED
STATES SUPREME COURT,

I DENISE JACKSON PLAINTIFF PRO SE , RESPECTFULLY REQUEST YOUR INTERVENTION
EXAMINATION, REVIEW FOR A REHEARING ON THE MERITS OF MY CASE.
TO ENSURE THE PROPER APPLICATION OF LAW IN THE DISMISSAL OF MY CASE, AND
THE RULE OF LAW CONCERNING THE PREPONDERANCE OF IRREFUTABLE EVIDENCE
SUBMITTED TO THE DISTRICT COURT ON THE RECORD.

THIS IS A CASE OF DISCRIMINATION IN FEDERALLY FUNDED PROGRAMS, AND HOUSING
RELATED ACTIVITIES BY WELLS FARGO HOME MORTGAGE IN VIOLATION OF FEDERAL
LAWS AND GUIDELINES THAT GOVERN F.H.A7 HUD.

MERITS OF A CASE: BLACK’S DICTIONARY:
1) THE ELEMENTS OR GROUNDS OF A CLAIM OR DEFENSE; THE SUBSTANTIVE
CONSIDERATIONS TO BE TAKEN INTO ACCOUNT IN DECIDING A CASE.
2) A JUDGEMENT BASED ON THE EVIDENCE RATHER THAN TECHNICAL OR
PROCEDURAL GROUNDS.

u

TABLE OF AUTHORITIES
CASES:
CONLEY V. GIBSON 355 U.S.41 AT 48 (1957)
HAINES V. KERNER 404 U,S, 519 (1972)
BOYD V. UNITED STATES, 116 U.S, 616 AT 635 (1885)
CITY OF OAKLAND V. WELLS FARGO & CO. 972 F,3P 1112 99TH CIR, 2020)
MAY V. SPOKANE CITY NO. 7179-4ILL (WASH. CT APP. FEB 23,2021)
TRINSEY V. PAGLIARO D.C. (1964) 229 F.SUPP 647
PLATSKY V. C.LA./ F.B.I, 953 F.2D. 25
ANASTASOFF V. UNITED STATES, 223 F.3D 898 (8TH CIR. (2000)
BOSQUE V. WELLS FARGO BANK N.A., F.SUPP.2D (2011)
CITY OF LA. V. WELLS FARGO & CO. 22 F.SUPP. 3D 1047 (C.D. CAL. 2014)
CITY OF MIAMI GARDENS V. WELLS FARGO 931 F.3D 1274 (11TH CIR. 2019)
MATY V. GRASSELLl CHEMICAL CO., 303 U.S. 197 (1938)
SAINT-JEAN V. EMIGRANT MORTG.CO. 50F.SUPP 3D 300 (E.D.N.Y. 2014)
CITY OF LA. V. CITIGROUP INC. 24 F.SUPP 3D 940 (C.D. CAL 2014)
BRACEY V. WARDENN, U.S. SUPREME COURT NO. 96-6133 (1997)
NHU THI DO V. PHUONG TRONG NGUYEN NO. A-2039 10T1 (N.J. SUPER. AUG. 24,2012)
BOYKIN V. KEYCORP 521 F. 3D 202 (2D CIR. 2008)

iii

CONSTITUTIONAL PROVISIONS
14TH AMENDMENT TO THE CONSTITUTION- EQUAL RIGHTS
7TH AMENDMENT UNDER BILL OF RIGHTS- RIGHT TO A JURY TRIAL

STATUTORY PROVISIONS
FRAUD ON THE COURT
42 U.S.1981- EQUAL RIGHTS UNDER THE LAW42 U.S.2000d-1 FEDERAL ASSISTED PROGRAM
18 U.S, 242 DEPRIVATION OF RIGHTS UNDER COLOR OF LAW
18 U.S.C. 100-SEC1001- MAKING FALSE STATEMENTS/ CONCEALING
INFORMATION
FEDERAL HOUSING ACT LAW- TITLE 8 OF THE CIVIL RIGHTS OF 1968SECTION 805-REDLINING/ EQUAL CREDIT OPPORTUNITY ACT-3605/
3602 /3631

RULES
FEDERAL RULE OF CIVIL PROCEDURE # 1 SPEEDY DETERMINATION
FEDERAL RULE OF CIVIL PROCEDURE # 8- PLEADING INSTRUCTIONS/
STANDARD.
FED R. APP. RULE 40- PANEL -REHEARING
LOCAL APP. RULE 40.1FED R. OF APP. # 41- ISSUANCE OF MANDATE
DUE PROCESS

iv

NO.20-820

IN THE SUPREME COURT OF THE UNITED STATES
DENISE JACKSON, PETITIONER
PROSE
V.
WELLS FARGO HOME MORTGAGE,
RESPONDENT

ON THE MATTER OF PETITION FOR REHEARING
TO THE UNITED STATES COURT OF APPEALS
FOR THE 2ND CIRCUIT
CERTIFICATION PRO SE

I DENISE JACKSON, PETITION, PRO SE, HEREBY CERTIFY THAT THIS PETITION FOR
REHEARING IS PRESENTED IN GOOD FAITH AND NOT FOR DELAY AND IS RESTRICTED
TO THE GROUNDS SPECIFIED IN RULE 44.2.
IT IS FOR THE PURPOSE TO SHOW THE MERITS OF THE CASE, A COMPARISON TO LIKE
CASES, AND NEW EXECUTIVE ORDERS PERTAINING DIRECTLY TO MY CASE
IMPLEMENTED BY THE PRESIDENT OF THE UNITED STATES OF AMERICA
HONORABLE, JOSEPH R. BIDEN.

MY PETITION IS BRIEF ON ALL THREE COMPLETED LOAN/MODIFICATION PROCESS
FOR THE MERITS. IT IS IN COMPLIANCE OF THE WORD COUNT RESTRICTION AND
DISTINCTLY STATE SUBSTANTIAL GROUNDS NOT PREVIOUSLY PRESENTED FOR
THE MERITS.

THE MERITS OF MY CASE
THIS IS A MERITORIOUS CASE, MY ALLIGATIONS IS NOW TRUTH AND FACTS WHEN
YOU EXAMINE AND APPLY MY PREPONDERANCE OF DOCUMENTARY EVIDENCE .

1) LOAN APPROVAL COMMITMENT DOCUMENT THAT STATES
CONGRATULATIONS YOUR LOAN IS APPROVED", GENERATED BY WELLS FARGO
HOME MORTGAGE, FOR THE 2012 FEDERAL STREAMLINE REFINANCE LOAN,
2) THE CONDITION TO CLOSE ON THE 2012 FEDERAL STREAMLINE REFINANCE
INDICATED AS THE CONDITION TO CLOSE IS CLEAN TITLE . THIS CONDITION
WAS SATISFIED AND NO OTHER CONDITIONS WERE NOTED,
3) THE GOOD FAITH ESTIMATE FOR THE 2012 FEDERAL STREAMLINE
REFINANCE LOAN,
4) THE APPROVAL AND ENDORSEMENT OF THE F.H.A./ HUD FOR THE 2012
FEDERAL STREAMLINE REFINANCE LOAN, THE F.H.A. VERIFIED CONFIRMED
AND APPROVED THE FINANCIAL DOCUMENTS, AND APPROVED THE LOAN IN
AGREEMENT WITH WELLS FARGO’S OWN UNDERWRITERS, AS WELLS AS HUD’S
ENDORSEMENT AND APPROVAL TOO.
5} FEDERAL TRUTH IN LENDING DISCLOSURE DOCUMENTS FOR THE 2012
FEDERAL STREAMLINE REFINANCE LOAN . FEDERAL TRUTH IN LENDING DISCLOSURE;
FEDERAL LAW, MANDATED BY THE TRUTH IN LENDING ACT REQUIRES ALL LENDERS
TO GIVE ALL QUALIFIED LOAN CANDIDATES DISCLOSE OF ALL COST ASSOCIATED
WITH CONTRACTUAL OBLIGATIONS BEFORE CLOSING ON THE LOAN.
BY LAW YOU ONLY GET THE TRUTH IN LENDING DOCUMENTS IF YOU ARE
APPROVED FOR A LOAN, IF YOU ARE NOT APPROVED FOR A LOAN THE LENDER IS
OBLIGATED UNDER THE EQUAL CREDIT OPPORTUNITY ACT LAW, TO PROVIDE THE
REASON FOR DENIAL IN WRITING WITHIN 30 DAYS. NOTE: WELLS FARGO HOME
MORTGAGE DID NOT SUBMIT ANY EVIDENCE TO THE DISTRICT COURT TO OPPOSE
THEIR OWN UNDERWRITERS APPROVAL OR DENIAL OF MY LOAN AS THE FRCP#11-B-3
DICTATES.
ALL OF THE ABOVE ARE OFFICIAL BANK DOCUMENTS LISTED 1-5 ARE GENERATED
BY WELLS FARGO UNDERWRITERS, AS WELL AS F.H.A/HUD ENDORSEMENT AND
APPROVAL, THESE OFFICIAL BANK DOCUMENTS WERE GIVEN TO ME BECAUSE I
WAS QUALIFIED AND APPROVED FOR THE 2012 FEDERAL. STREAMLINE REFINANCE
LOAN, BY WELLS FARGO. WHEN WELLS FARGO REFUSED TO A CLOSE THE LOAN
THIS IS A VIOLATION OF THE FAIR HOUSING ACT LAW, TITLE VII OF THE CIVIL RIGHTS
ACT OF 1968 AS AMENDED( 42 USC 3601, MAKING IT UNLAWFUL TO DENY QUALIFIED
APPLICANTS LOANS. WELLS FARGO HAS VIOLATED FEDERAL LAWS.

I

MERITS OF THE 2014 RESOLUTION LETTER MY EVIDENCE
WELLS FARGO GAVE ME THIS RESOLUTION LETTER AS A RESOLVE TO MY
COMLAINTS TO THE CONSUMER PROTECTION BUREAU FOR RACIAL DISCRIMINATION
FOR THE 2012 STREAMLINE FEDERAL LOAN PROGRAM. AND THE FEDERAL FULLY
FUNDED MODIFICATION PROGRAM THAT WELLS FARGO DEPRI VED ME OF THE RIGHT TO
PARTICIPATE IN, AND REFUSED TO CLOSE ON THE 2012 STREAMLINE LOAN PROGRAM.
I ALSO WROTE TO THE CEO MR. JOHN STUMP, AND ANOTHER BOARD OF DIRECTOR
MEMBER COMPLAINING THAT WELLS FARGO REFUSED TO CLOSE ON THE 2012 LOAN.
COPIES OF THE CPB COMPLAINT AS WELL AS THE BOARD OF DIRECTOR OF WELLS
FARGO WAS SUBMITTED TO THE DISTRICT COURT. IT WAS ALSO A RESULT OF MY
COMPLAINT TO THE FEDERAL HOUSING ADMINISTRATION FOR THE SAME.
THE RESOLUTION 3 PAGE LETTER, IS A PERSONAL LETTER, IT IS NOT PART OF ANY LOAN
PROCESS,
PAGE # 1 WELLS FARGO STATES THE ELIGIBILITIES FOR THE STREAMLINE REFINANCE
CITING” YOU MUST BE CURRENT ON YOUR LOAN”, YOU CANNOT BE IN DEFAULT ON
YOUR LOAN, I WAS NOT IN DEFAULT, AND IT CITES “ NO TAX RETURN IS REQUIRED”.
THEY REQUESTED ALL MY FINANCIAL DOCUMENTS INCLUDING 3 YEARS OF TAX
RETURNS. THIS IS A VIOLATION OF THE F.H.A LAW # SEC 805 REDLINING SEE APPENDIX
OF EVIDENCE.
PAGE #2 TOP PARAGRAPH OF RESOLUTION LETTER CITES WELLS FARGO ADMIT THEY
INADVERTENTLY, INAPPROPRIATELY CANCELED THE 2012 LOAN. THEY ALSO GAVE ME
$1000, INVITED ME TO RE-APPLY FOR THE STREAMLINE LOAN, AS WELL AS PROMISING
TO GIVE ME THE DIFFERENCE IN THE INTEREST FROM 2012, TO THE CLOSING OF THE
2014 LOAN IF I QUALIFIED, WHICH I DID, BUT WELLS FARGO AGAIN REFUSE TO CLOSE
THE 2014 LOAN. NO FINAL LETTER WAS GIVEN TO ME AFTER REPEATED INQUIRIES TO
WELLS FARGO UP UNTIL DECEMBER 2015.
MERITS FOR 2014 STREAMLINE LOAN
I COMPLETED THE LOAN PROCESS FOR THE 2014 LOAN, I SUBMITTED THE TRUTH IN
LENDING DISCLOSURE DOCUMENTS FOR 2014, AND THE ESCROW DOCUMENTS TO THE
DISTRICT COURT TO PROVE I WAS QUALIFIED, AND MY ESCROW WAS NOT SHORT.
SEE APPENDIX OF EVIDENCE FOR ESCRO W AND THE 2014 TRUTH IN LENDING
DOCUMENTS. THE MAGISTRATE JUDGE, STEVEN TISCIONE, CONCLUDED IN HIS R/R
REPORT, MOTION TO DISMISS MY CASE “ I WAS NOT QUALIFIED FOR THE 2012 LOAN,
AND 2013 MODIFICATION “ IN OPPOSITION OF WELLS FARGO’S OWN GENERATED LOAN
COMMITMENT APPROVAL DOCUMENT, AND THE U.S. DEPARTMENT OF TREASURY
ELIGIBILITY OFFICIAL REPORT, SUBMITTED TO THE DISTRICT COURT AS EVIDENCE
I WAS ENTITLED TO THOSE FEDERAL LOAN PROGRAMS. THIS EVIDENCE IS THE MERITS
FOR THE 2014 FEDERAL STREAMLINE LOAN.

a

1 CHALLENGE THE APPELLATE COURT DECISION ON THE MERITS/
THE DISTRICT COURT DECISION TO DISMISS
I SUBMITTED A PREPONDERANCE OF OFFICIAL BANK. DOCUMENTATION THAT WAS
GENERATED BY WELLS FARGO, AND DIRECTLY SUPPORTS, AND PROVE l WAS ENTITLED
TO THOSE FEDERAL LOAN PROGRAMS, BUT WAS REFUSED, AND DENIED WHILE BEING
QUALI FI ED FOR THESE FEDERAL LOAN PROGRAMS,
MY IRREFUTABLE EVIDENCE IS AS FOLLOWS:
1)
2)
3)
4)
5)

2012 FEDERAL STREAMLINE COMMITMENT LOAN APPROVAL DOCUMENT
2012 FEDERAL STREAMLINE ENDORSEMENT, AND APPROVAL FROM FHA/HUD
GOOD FAITH ESTIMATE 2012 FEDERAL STREAM LINE LOAN
2012 TRUTH IN LENDING DISCLOSURE DOCUMENTS
2013 OFFICIAL U S. DEPARTMENT OF TREASURY ELIGIBILITY REPORT- PROOF OF
QUALIFICATION FOR PARTICIPATION IN THE FEDERAL MODIFICATION PROGRAM.

6)
COPY OF 2013 APPLICATION FILED WITH WELLS FARGO AT THE FACE TO FACE
N.A.C.A., NEIGHBORHOOD ASSISTANCE CORPORATION OF AMERICA, THE DREAM
TOUR AT THE JACOB JAVJS CENTER FOR THE FEDERAL MODIFICATION PROGRAM:.
PROOF WELLS FARGO MORTGAGE BANK REPRESENTATIVES, SAW ME FACE TO
FACE.
7) PERSONAL RESOLUTION LETTER GI VEN TO ME AS A PROMISE TO CORRECT THE
2012 FEDERAL STREAMLINE REFINANCE, WELLS FARGO INADVERTENTLY, AND
INAPPROPRIATELY CANCELED, AS THEIR ANSWER FOR NOT CLOSING THE LOAN.
8) PERSONAL RESOLUTION LETTER IS NOT PART OF ANY LOAN APPLICATION'
PROCESS, BUT WELLS FARGO ANSWER TO WHY THEY DEPRIVED ME OF THE
RIGHT TO PARTICIPATE IN THE 2013 FEDERAL FULLY FUNDED MODIFICATION
PROGRAM. PARAGRAPH 3 PAGE # 2
BY STATING” WE COULDN'T GET IT DOWN TO 40%’\ WHICH IS NOT A CRITERIA
ELIGIBILITY, OR QUALIFICATION TO PARTICIPATE IN THE PROGRAM.
THE GUIDELINE FOR QUALIFICATION IS 31% OF YOUR MONTHLY INCOME.SEE U.S. DEPARTMENT OF TREASURY OFFICIAL REPORT FOR ELIGIBILITY.
HONORABLE JUDGE SAILOR, IN THE BOSQUE V. WELLS FARGO BANK, N.A. F.SUPP.
2ND (2011) IN MY APPENDIX OF EVIDENCE SUBMITTED TO THE DISTRICT COURT
AND THE U.S. COURT OF APPEALS 2ND CIRCUIT PAGE A184-192.
9) 2014 FEDERAL STREAMLINE REFINANCE TRUTH IN LENDING DISCLOSURE
DOCUMENTS. PROOF THAT ALL FINANCIAL DOCUMENTS HAD TO BE SUBMITTED
AND APPROVAL FOR CLOSING OF THIS LOAN, AS YOU ONLY GET FEDERAL
TRUTH IN LENDING DOCUMENT IF YOU ARE APPROVED FOR THE LOAN.

3

10) 2014 ESCROW REPORT, PROVES NO SHORTAGE GENERATED BY WELLS FARGO
OWN UNDERWRITERS, SEE APPENDIX A-l63 EVIDENCE SUBMITTED TO THE
COURT.

IN THE DISTRICT COURT MY EVIDENCE WAS SPOILED, CONCEALED RESTRICTED ON THE
E-FILE SYSTEM. SEE COPY OF DOCUMENT ATTACHED PROM THE DISTRICT COURT
RESTRICTING MY EVIDENCE. EXHIBITS- !-5 WAS SUBMITTED 2/8/2016 THE DOCUMENTS
WERE NOT TILTED, AS IT HAS BOLD TITLED ON THE OFFICIAL BANK DOCUMENTS THE
COMMITMENT LOAN APPROVAL, AS WELL AS THE TRUTH IN LENDING DOCUMENTS
THAT PROVE I WAS QUALIFIED FOR THE LOAN.
NO COURT ORDER ON THE CALENDAR FOR RESTRICTION OF MY EVIDENCE
EXHIBIT 1-5 VALIDATES MY COMPLAINT THIS EVIDENCE ARE MERITS LEGAL GROUNDS
FOR MY CASE.
THE DISTRICT COURT DISMISSED MY CASE AFTER 3 AND HALF YEARS WITH
PREJUDICE. IN THEIR FINDING OF FACTS MY EVIDENCE WAS NOT MENTIONED. MY
APPROVALS FROM WELLS FARGO OWN UNDERWRITERS, F.H.A./HUD ENDORSEMENT AND
APPROVAL FOR MY LOANS, OR THE FEDERAL TRUTH IN LENDING DISCLOSURE
DOCUMENTS I SUBMITTED WAS NOT MENTIONED, OR EXPLAINED HOW THEY DID NOT
SUPPORT MY COMPLAINT.
THIS IS MERITS THAT VALIDATES AND SUBSTAINIATES MY COMPLAINT.
MAGISTRATE STEVEN TISCIONE, CONCLUDED 1 WAS NOT QUALIFIED FOR THE 2012,
STREAMLINE FEDERAL LOAN, AND THE 2013 FEDERAL MODIFICATION PROGRAM, '
BUT DID NOT SHOW ANY EVIDENCE THAT OPPOSES MY APPROVALS, OR ANY
BANK DOCUMENTATION THAT SUPPORT HIS CONCLUSION. THIS CONCLUSION IS IN
DIRECT CONFLICT WITH WELLS FARGO’S OFICIAL BANK DOCUMENTARY EVIDENCE
AND THE F.H.A./HUD APPROVAL AND ENDORSEMENT FOR THE LOAN, AS WELL AS THE
U.S. DEPARTMENT OF TREASURY OFFICIAL REPORT THAT PROVES I WAS ENTITLED TO
THE FEDERAL LOAN AND MODIFICATION PROGRAM.
THIS IS VIOLATION OF PROCEDURAL DUE PROCESS 14TH AND THE 5TH AMENDMENTS:
1 ) A RIGHT TO A DECISION BASED ONLY ON THE EVIDENCE.
2) A REQUIRED RECORD OF M Y EVIDENCE PRESENTED TO THE COURT.
3) AN WRITTEN EXPLANATION OF THE COURT'S FINDING OF FACTS.
4) MY EVIDENCE APPLIED TO MY COMPLAINT.
5) AN UNBIASED COURT
6) MY EVIDENCE APPLIED TO MY COMPLAINT.

H

THE APPELLATE COURT IS OBLIGATED TO REVIEW EVERYTHING ON THE RECORD AND
ALL OF MY EVIDENCE TO COME TO A CORRECT FINDING OF THE FACTS. MY
ALLIGATIONS IS NO LONGER ALLIGATION WHEN YOU APPLY MY EVIDENCE, IT IS NOW
TRUTH AND FACTS. IT CAN ALSO SUPPORT THE PROBABILITY OF A CLAIM OR A CAUSE
OF ACTION, EVIDENCE IS PROOF FOR A CAUSE OF ACTION IN A LEGAL PROCEEDING.
EVIDENCE IS THE RULE OF LAW, IT IS CONSTITUTIONAL AND IT IS A PART OF OUR
DEMOCRACY
I LIKE TO INCORPORATE JUDICIAL NOTICE INTO MY COURT DOCUMENTS THAT QUOTES
“HAINES V KERNER 404 U.S, 519, AND PLASKY V. CXA. 953 F.2D 25 AND ANASTASOFF V.
UNITED STATES, 223F.898 (8TH CIR.2O0O) WILLY V. COASTAL CORP, 503 U.S. 131,135(1992).
I SUBMITTED TWO MOTIONS TO THE APPELLATE COURT ADVISING THAT MY EXLAWYERS ON RECORD REFUSED, AND FAILED TO ADVISE THE COURT THAT MY VITAL
SUPPORTIVE EVIDENCE EXISTED, OR PRESENTED AND ARGUED THAT THESE OFFICIAL
BANK DOCUMENTS, WELLS FARGO COMMITMENT LOAN APPROVAL, THE ENDORSEMENT
AND APPROVAL OF THE F.H.A/ HUD, PROVES I WAS QUALIFIED APPROVED, AND
ENTITLED TO THE FEDERAL LOAN PROGRAM .
MY EX- REAL ESTATE ATTORNEY ON RECORD HAD THIS EVIDENCE FOR OVER ! YEAR.
IN MY MOTION TO THE APPELLATE COURT I SUBMITTED IN AN EXHIBIT THE TRUTH. IN
LENDING DISCLOSURE DOCUMENTS, THE COMMITMENT LOAN APPROVAL, AND 5 VITAL
EVERDENTRY PIECES OF EVIDENCE, AS WELL AS WHERE THE EVIDENCE IS LOCATED ON
THE CALENDAR IN THAT EXHIBIT ALONG WITH A HARD COPY OF THE TERMINATION
LETTER FOR MY EX- LAWYERS, EVIDENCE REQUESTING A REHEARING, BUT WAS
DENIED.
MY CASE WAS DISMISSED FOR 12 (B) (6) WRONGFULLY BECAUSE MY PREPONDERANCE
OF IRREFUTABLE OFFICIAL BANK DOCUMENTARY EVIDENCE GENERATED BY WELLS
FARGO HOME MORTGAGE WAS NOT APPLIED TO MY COMPLAINT.
IF YOU DON'T APPLY MY EVIDENCE TO MY CLAIMS THEN THE CLAIM HAS NO GROUNDS
AND 12 (B) (6) WOULD APPLY, BUT IF I HAVE A PREPONDERANCE OF OFFICIAL BANK
DOCUMENTARY EVIDENCE THAT DIRECTLY SUPPORTS MY CLAIMS VALIDATES AND
SUBSTANTIATES MY CLAIMS THE JUDGE SUPPOSE TO RULE IN MY FAVOR 12(B) (6) DONT
APPLY.
IN THE INTEREST OF FAIRNESS AND IMPARTIALITY ASK THAT THIS COURT EXAMINE
AND REVIEW THE MERITS OF MY CASE APPLING MY EVIDENCE TO MY CLAIMS AND
REMAND MY CASE BACK TO THE DISTRICT COURT FOR TRIAL.

s

BOYKIN V. KEYCORP COMPARISON MERITS
THE 2ND CIRCUIT APPELLATE COURT JUDGE HONORABLE, SONIA SOTOMAYOR
WHO’S OPINION WAS INSTRUMENTAL IN REMANDING BOYKIN’S CASE BACK TO THE
DISTRICT IS NOW THE HONORABLE JUSTICE, SONIA SOTOMAYOR IN THIS U.S,
SUPREME COURT.
BOYKIN V. KEYCORP 521 F.3D 202-COURT OF APPEALS 2ND CIRCUIT, 2008
BOYKIN WHO REPRESENTED HERSELF PRO SE ALLEGED DISPARATE TREATMENT
AND DISCRIMINATION UNDER PROVISION OF THE F.H.A. AND CIVIL RIGHTS STATUES.
SHE ALLEGED THAT KEYBANK DISCRIMINATED AGAINST HER BASED ON HER RACE,
SEX, AND PROPRERTY BEING IN A BLACK NEIGHBORHOOD.
HER COMPLAINT CONTAINED NO SPECIFIC FACTS SUPPORTING HER CLAIMS. THE
ONLY SPECIFIC ACTS ALLEGED IN THE COMPLAINT WERE SHE WAS DENIED AFTER
HAVING BEEN CONDITIONALLY PRE APPROVED AND THE BANK FAILED TO OFFER
OTHER LOANS PRODUCTS AS SHE BELIEVED OTHER MEMBERS OF A NON
PROTECTED CLASS WERE PRIVILEGED TO. ALL THOUGH SHE FILED HER CLAIM
AFTER TWO YEARS FROM DENIAL HER SAVING GRACE WAS NOT RECEIVING AN
OFFICIAL FINAL LETTER FROM F.H.A. AND HAD AN UNDERSTANDING,GRACIOUS, AND
JUST JUDGMENT WHO SENT HER CASE BACK TO HER DISTRICT COURT.
I EXPERIENCED DEPARTMENT TREATMENT AND DISCRIMINATION BY WELLS FARGO
AT THE JACOB JAVIS CENTER WHEN I APPLIED FOR THE FEDERAL MODIFICATION
PROGRAM IN 2013. I WAS A WITH A COMPANION, WHO ACCOMPANIED ME IN
APPLYING FOR THE 2013 MODIFICATION FACE TO FACE WITH WELLS FARGO
MORTGAGE SPECIALIST. THIS WAS THE N.A.C.A. DREAM TOUR DESIGNED TO GIVE
LOAN APPROVAL OR DENIAL ON THE SPOT. I WITNESSED OTHER SIMILARLY SUITED
APPLICANTS APPROVED ON THE SPOT BY THE RINGING THE APPROVAL BELL. I WAS
SENT HOME AFTER COMPLETING MY LOAN PROCESS WITH NO ANSWER. ABOUT TWO
WEEKS LATER I RECEIVED A CALL FROM WELL FARGO MORTGAGE DEPARTMENT
CLAIMING I DID NOT QUALIFY BECAUSE I COULD NOT AFFORD MY HOUSE. I NEVER
RECEIVED ANYTHING IN WRITING FROM WELLS FARGO STATING I WAS NOT
QUALIFIED FOR THE MODIFICATION. WELLS FARGO NEVER SENT ANYTHING IN
WRITING. I NEVER RECEIVED CLOSURE FOR THE FEDERAL MODIFICATION REQUEST.
THIS IS IN VIOLATION OF CIVIL RIGHTS ACT OF 1968 (42 USC 3601 et seq).
THE U.S. DEPARTMENT OF TREASURY OFFICIAL ELIGIBILITY REPORT, SUBMITTED TO
THE DISTRICT COURT PROVES I MET THE REQUIREMENTS FOR THE MODIFICATION:
1) I PURCHASED MY HOME PRIOR PRIOR TO 2009
2) IT IS MY PRIMARY RESIDENCE
3) MY MORTGAGE EXCEEDS 31% OF MY INCOME.

k

NEWLY APPOINTED U. S. ATTORNEY GENERAL HONORABLE, MERRICK GARLAND
STATES: " AS I SAID AT THE ANNOUNCEMENT OF MY NOMINATION, THOSE NORMS
REQUIRE THAT LIKE CASES BE TREATED ALIKE. THAT THEY ARE NOT BEING ONE
RULE FOR DEMOCRATS AND ANOTHER FOR REPUBLICANS.... ONE RULE FOR THE
POWERFUL AND ANOTHER FOR THE POWERLESS. ONE RULE FOR THE RICH AND
ANOTHER FOR THE POOR”. OR DIFFERENT RULES DEPENDING ONE’S RACE OR
ETHNICITY”...ALL OF US UNITED BY OUR COMMITMENT TO THE RULE OF LAW AND TO
SEEKING EQUAL JUSTICE UNDER THE LAW”.
LIKE BOYKIN V. KEYCORP, I ALSO NEVER RECEIVED A FINAL LETTER FROM WELLS
FARGO EXPLAINING WHY THEY REFUSED ME A CLOSING DATE FOR THE 2014
FEDERAL STREAMLINE REFINANCE LOAN. LIKE BOYKINS,
1) AS A BLACK WOMEN I AM A MEMBER OF A PROTECTED CLASS
2) THE OFFICIAL U.S. DEPT OF TREASURY REPORT VERIFIED I WAS QUALIFIED
3) I WAS DENIED AND DEPRIVED OF THE MODIFICATION AS WELL AS ALL THREE
OF THE FEDERALLY FUNDED PROGRAMS WHICH MY OFFICIAL BANK
ENDORSEMENT AND APPROVALS FROM F.H.A./HUD AS WELL AS WELLS FARGO
OWN UNDERWRITERS APPROVAL.
4) MEMBERS OF THE NON PROTECTED CLASS SIMULARY SUITED FINANCIALLY
AND QUALIFIED WERE GRANTED THE FEDERAL MODIFICATION AND FEDERAL
STREAMLINE LOAN.
LIKE BOYKINS, I STRONGLY BELIEVE MEMBERS OF THE NON PROTECTED CLASS
WERE PROVIDED COUNSELING GUIDANCE AND OTHER FAVORABLE FEDERAL
FINANCIAL ASSISTANCE WHICH WAS NOT OFFERED TO ME, AND I WAS NOT TREATED
AS IF I WAS QUALIFIED FOR THE LOAN PROGRAMS, BUT I WAS TREATED LIKE I WAS
NOT QUALIFIED. 14TH AMENDMENT TO THE U.S. CONSTITUTION.
WELL FARGO NEVER SUBMITTED ANY DOCUMENTS TO THE DISTRICT COURT
EXPLAINING WHY THEY REFUSED TO CLOSE ON THE 2014 FEDERAL REFINANCE
LOAN, NOR DID THE MAGISTRATE MENTION THE 2014 LOAN IN HIS CONCLUSION,
PAGE 29, OF THE 2018 R/R . HE FURTHER DIDN'T MENTION THE 2014 FEDERAL
TRUTH IN LENDING DISCLOSURE DOCUMENT THAT WAS GIVEN TO ME FOR THE
EXPECTATION OF CLOSING ON THE 2014 LOAN. THIS IS IN CONFLICT WITH MY
EVIDENCE AND THE DISMISSAL BASED ON 12 B(B) 6. THE MAGISTRATE JUDGE DID
NOT CONCLUDE I WAS NOT QUALIFIED FOR THE 2014 FEDERAL STREAMLINE LOAN
AND HE DID NOT EXPLAIN IT IN HIS FINDING OF FACTS UPON DISMISSING MY CASE
ENTITY WITH PREJUDICE.
THIS IS IN VIOLATION OF THE PROCEDURAL DUE PROCESS CLAUSE. 14TH AND THE

1

5TH AMENDMENT TO THE CONSTITUTION. IT IS ALSO VIOLATES TITLE VIII OF THE
CIVIL RIGHTS ACT OF 1968 (42 USC 3601 et seq), EQUAL CREDIT OPPORTUNITY ACT.
UNLIKE THE BOYKIN V. KEYCORP, MY CASE HAD THREE SEPARATE COMPLETED
LOAN AND MODIFICATION REQUEST IN WHICH I WAS QUALIFIED, RECEIVED
APPROVAL AND ENDORSEMENT FROM FHA/HUD, WELLS FARGO OWN
UNDERWRITERS, BUT WAS STILL DENIED A CLOSING. I WAS QUALIFIED FOR THE
MODIFICATION BUT WAS DEPRIVED OF THE OPPORTUNITY TO PARTICIPATE IN THE
FEDERAL LOAN PROGRAM.
I HAVE IRREFUTABLE OFFICIAL BANK DOCUMENTARY EVIDENCE THAT GIVES MY
CASE LEGAL GROUNDS, LEGAL WORTHINESS, THIS IS A MERITORIOUS CASE.
IN THE INTEREST OF EQUAL JUSTICE AND FAIRNESS MY CASE SHOULD BE
REMANDED TOO. 14TH AMENDMENT.

e

IN CONCLUSION
I REQUESTED THIS REHEARING BECAUSE MY REPLY BRIEF WAS NOT CONSIDERED IN
FOR MY WRIT OF CERTIORARI ALTHOUGH IT WAS TIMELY SUBMITTED. INCLUDED IN
MY REQUEST FOR REHEARING IS ANSWERS TO WELL FARGO’S ATTORNEY REPLY BRIEF.
STATING THE FACTS AND THE MERITS OF THE CASE.

HONORABLE PRESIDENT JOSEPH R. BIDEN SIGNED A NEW EXECUTI VE ORDER
DIRECTED TO THE DEPARTMENT HOUSING AND DEVELOPMENT ADDRESSING RACIAL
BIAS IN HOUSING AND ADVANCING FAIR HOUSING LAWS.
DIRECTING HUD TO IMPLEMENT FAIR HOUSING ACT, AND THE DISPARATE IMPACT
STANDARD. THIS IS THE DIRECTION THE PRESIDENT WANTS THE COUNTRY TO GO IN TO
ENSURE EQUAL JUSTICE FOR ALL PEOPLE.
THE HONORABLE MERRICK GARLAND, U.S. ATTORNEY GENERAL STATED “
ALL OF US ARE UNITED BY OUR COMMITMENT TO THE RULE OF LAW AND SEEKING
EQUAL JUSTICE UNDER THE LAW: IT WAS FURTHER STATED HE IS COMMITTED TO
ENFORCING OUR COUNTRY’S LAWS AND ENSURING THE CIVIL RIGHTS AND CIVIL
LIBERTIES OF OUR PEOPLE.
THIS IS A CASE OF DISCRIMINATION IN FEDERALLY FUNDED PROGRAMS AND
VIOLATIONS OF FAIR HOUSING LAWS.
IT IS WITH THE PROMISES OF THE PRESIDENT AND THE U.S ATTORNEY GENERAL THAT I
ASK THIS COURT FOR A REHEARING FOR MY WRIT CERTIORARI.
IT IS WITH GREAT RESPECT AND HUMILITY THAT I ASK THIS COURT TO THOROUGHLY
EXAMINE THE MERITS OF MY CASE PROTECT MY CONSTITUTIONAL RIGHTS TO HAVE
MY EVIDENCE PROPERLY AND APPROPRIATELY APPLIED TO MY CLAIMS TO COME WITH
FAIRNESS AND IMPARTIALITY TO ENSURE EQUAL JUSTICE AND RELIEF IS
ADMINISTERED IN MY CASE.
THANK YOU FOR YOUR ATTENTION AND YOUR CONSIDERATION IN MY REQUEST
FOR REHEARING MY CASE.

V PRO SE

\ X^

Additional material
from this filing is
available in the
Clerk's Office.

A

